No. 19-726
In the

Supreme Court of the United States
MALLORY JONES, et al.,
Petitioners,
v.
RAMONE LAMKIN, INDIVIDUALLY AND IN
HIS OFFICIAL CAPACITY AS MARSHAL OF
THE CIVIL AND MAGISTRATE COURT OF
RICHMOND COUNTY, GEORGIA, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

BRIEF IN OPPOSITION
Jody Mae Smitherman
Augusta Law Department
535 Telfair Street
Building 3000
Augusta, GA 30901
(706) 842-5550
jsmitherman@augustaga.gov

Edward J. Tarver
Counsel of Record
Enoch Tarver, P.C.
3540 Wheeler Road, Suite 312
Augusta, GA 30909
(706) 738-4141
etarver@enochtarver.com

Counsel of Record for
Respondent Augusta,
Georgia

Counsel of Record for
Respondent Ramone
Lamkin

294851

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
In determining whether or not the exception to
First Amendment protections for public employees as
set forth by this Court in Elrod v. Burns, 427 U.S. 347
(1976), and Branti v. Finkel, 445 U.S. 507 (1980), applies,
can the lower courts rely on enabling legislation for the
positions in question to establish that party affiliation is
an appropriate requirement for the effective performance
of the position or must the lower courts rely solely on the
actual duties performed by the individual in the position
to make such a determination?

ii
PARTIES TO THE PROCEEDINGS
Petitioners are Mallory Jones and Troy A. Moses.
Respondents are Ramone Lamkin, in his individual and
official capacity as Marshal of the Civil Court of Richmond
County, Georgia, and Augusta, Georgia.

iii
RELATED CASES
Jones, et al, v. Lamkin, et al, CV 117-003, United
States District Court for the Southern District of Georgia,
2018 Westlaw 9538939 (S.D. Ga. 2018).
Jones, et al, v. Lamkin, et al, 2019 Westlaw 3183635
(11th Cir. 2019).

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . v
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS  . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

v
TABLE OF CITED AUTHORITIES
Page
Cases
Assaf v. Fields,
178 F.3d 170 (3d Cir. 1999) . . . . . . . . . . . . . . . . . . . . . 12
Branti v. Finkel,
44 U.S. 507 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Cutcliffe v. Cochran,
117 F.3d 1353 (11th Cir. 1997)  . . . . . . . . . . . . . . . . 9, 10
Diruzza v. County of Tehama, et al,
206 F.3d 1304 (9th Cir. 1304) . . . . . . . . . . . . . . . . . . . 11
Elrod v. Burns,
427 U.S. 347 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Ezell v. Wynn,
802 F.3d 1217 (11th Cir. 2015)  . . . . . . . . . . . . . . . . . . 10
Horton, et al v. Taylor,
767 F.2d 471 (6th Cir. 1985) . . . . . . . . . . . . . . . . . . . . 12
Jantzen, et al v. Hawkins, et al,
188 F.3d 1247 (10th Cir. 1999) . . . . . . . . . . . . . . . . . . 11
Stough v. Gallagher,
967 F.2d 1523 (11th Cir. 1992)  . . . . . . . . . . . . . . . . . . . 9

vi
Cited Authorities
Page
Terry v. Cook,
866 F.2d 373 (11th Cir. 1989) . . . . . . . . . . . . . . . . . 9, 12
Underwood v. Harkins,
698 F.3d 1335 (11th Cir. 2012) . . . . . . . . . . . . . . . . . 9-10
Statutes
U.S. Const. amend. I  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
O.C.G.A § 21-2-2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
1974 Ga. Laws 2410, §§ 10-12  . . . . . . . . . . . . . . . . . . . . 2, 6
1974 Ga. Laws, p. 2417 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
1978 Ga. Laws 3341, § 1 . . . . . . . . . . . . . . . . . . . . . . . . . 4, 6
1999 Ga. Laws 3508, § 10A  . . . . . . . . . . . . . . . . . . . . . . 2, 6

1
OPINIONS BELOW
The Eleventh Circuit decision is printed at 2019 WL
3183635 and is reprinted in Appendix 1 to the Petition for
a Writ of Certiorari. The District Court opinion granting
summary judgment to Lamkin and Augusta is printed
at 2018 WL 9538939 and reprinted in Appendix 15 to the
Petition for a Writ of Certiorari.
JURISDICTIONAL STATEMENT
The Supreme Court has jurisdiction to review the
decision of the Eleventh Circuit Court of Appeals by virtue
of 28 U.S.C. § 1254(1). On July 16, 2019, the Eleventh
Circuit Court of Appeals affirmed the grant of summary
judgment to Respondents. On September 5, 2019, the
Eleventh Circuit Court of Appeals denied the petition
for rehearing filed by Jones and Moses. Pursuant to Rule
13.1 of the Rules of this Court, the Petition for a Writ of
Certiorari was filed within ninety (90) day of September
5, 2019.
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I:
Congress shall make no law respecting as establishment
of religion or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition
the Government for a redress of grievances.

2
STATUTORY PROVISIONS
42 U.S.C. § 1983:
Every person, who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
… subjects, or causes to be subjected, any citizen of the
Unities States or other personal within the jurisdiction
thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall
be liable to the party injured in an action at all, suit in
equity, or other proper proceeding for redress, except in
any action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity, injunctive
relief shall not be granted unless a declaratory decree
was violated or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress applicable
exclusively to the District of Columbia shall be considered
to be a statute of the District of Columbia.
1974 Ga. Laws 2410, §§ 10-12:
Section 10. The sheriff and the clerk of the Civil
Court of Richmond County, Georgia, shall be appointed
by the chief judge of said court for a term of office to run
concurrently with his own. The sheriff and the clerk of
said court shall have authority, with the approval of the
chief judge of said court, to name their deputies who shall
hold said office at the pleasure of the said sheriff or clerk
as the case may be, subject to approval of the chief judge
of said court. It is hereby further provided that the chief
judge, and associate judge and all of the other officers of
the Civil Court of Richmond County, Georgia, now serving
their present term of office are hereby confirmed as the

3
chief judge, and associate judge and other officers of said
court, to name their deputies who shall hold said office at
the pleasure of said sheriff or clerk as the case may be
subject to approval of the chief judge of said court. It is
hereby further provided that the judge and all of the other
officers of the Civil Court of Richmond County, Georgia,
now serving their present term of office are hereby
confirmed as the judge and other officers of said court.
Section 11. Be it further enacted by the authority
aforesaid, that all of the requirements and duties, powers
and authority imposed by law upon and conferred upon
the clerk of Richmond County Superior Court and the
sheriff of Richmond County shall be obligatory upon
and shall be vested in the clerk and sheriff of said Civil
Court, and the several deputies, respectively and shall
be concurrent and coexistent with said clerk of Superior
Court and sheriff of Richmond County. Provided, however,
that the amount of the bond of the clerk of said Civil
Court shall be ten thousand ($10,000.00) dollars, and the
amount of the bond of the sheriff of said Civil Court shall
be ten thousand ($10,000.00) dollars, and the amount of
the bond of deputy clerks of said Civil Court shall be
one thousand ($1,000.00) dollars, and the amount of the
bond of deputy sheriffs of said Civil Court shall be one
thousand ($1,000.00) dollars; and all such bonds have as
surety thereon a surety company doing business in this
State and having an office and authorized to do business
in Georgia, and premium of such bonds to be paid out of
the county treasury of Richmond County, Georgia.
Section 12. The clerk and deputy clerks of said Civil
Court shall have complete power and authority, co-existent
and coordinate with the power of the judges of said court,

4
under the provisions of this Act, to issue any and all
warrants, civil and criminal, suits, and garnishments,
writs of attachment, distress warrants, dispossessory
warrants, warrants against intruders, warrants against
tenant holding over, possessory warrants, bail trover,
and summary processes and writs which are issuable
as a matter of right, to accept and approve bonds and to
discharge any and all other functions, which under the
laws of this State are performable by a justice of the peace.
And all deputy clerks, and deputy sheriffs, if and when
appointed under the terms of this Act, shall exercise all
the functions and be subject to all the responsibilities and
requirements of the clerk and sheriff of said court.
1978 Ga. Laws 3341, § 1:
An Act creating the Civil Court of Richmond County,
Georgia, approved August 28, 1931 (Ga. Laws 1931, p.
270), as amended, particularly by an Act approved March
31, 1971 (Ga. Laws 1971, p. 2745), is hereby amended
by striking, wherever the same shall appear, the word
“Sheriff” as it pertains to the Sheriff of the Civil Court of
Richmond County, Georgia, and inserting in lieu thereof
the word “Marshal”, so that after the effective date of
this Section the hereinbefore sheriff of said court shall
be known as and referred to as the “Marshal of the Civil
Court of Richmond County, Georgia.
1999 Ga. Laws 3508, § 10A:
The provisions of Section 10 of this Act or any other
provision of law notwithstanding, the person serving
as marshal of the Civil Court of Richmond County on
January 1, 1999, shall continue to serve as such for the

5
remainder of a term expiring January 1, 2002; except
in case of vacancy created by death, resignation, or
disqualification, in which event a special election to fill
such vacancy for the remainder of such term may be
called and held as provided by general law. The marshal
of the Civil Court of Richmond County shall be elected
at the general municipal election held in November, 2001,
and quadrennially thereafter by the qualified voters
of Richmond County for a term of office of four years
beginning January 1 following such election and until
the election and qualification of a successor. All elections
under this section shall be conducted on a nonpartisan
basis, without a primary, and as provided by Chapter 2 of
Title 21 of the O.C.G.A. All persons elected to the office
of marshal of the Civil Court of Richmond County under
the provisions of this section shall be elected by plurality
vote as defined by Code Section 21-2-2 of the O.C.G.A.
Any other provision of law notwithstanding, all persons
serving as marshal of said court under the provisions of
this section shall have the authority to manage the affairs
of said office and to name their deputies who shall hold
said office at the pleasure of the marshal.
STATEMENT OF THE CASE
Augusta, Georgia is a political subdivision of the State
of Georgia. The governing authority of Augusta, Georgia
is the Commission consisting of ten (10) Commissioners
and the Mayor (the “Commission”). 1995 Ga. Laws p. 3648,
3650. Under the authority and control of the Commission
is the Administrator, the General Counsel, the Clerk of
Commission, and the Director of Compliance. There are
no elected officials under the authority and control of the
Augusta, Georgia Commission.

6
Each of the various elected officials have budgets
that are part of the Augusta, Georgia budget because
Augusta, Georgia is legally required to provide them
with sufficient funds to effectively operate their offices.
Augusta, Georgia’s control over elected officials’ budgets,
including the Sheriff and the Marshal, is only to set the
annual dollar amount for their budget. Once an elected
official’s budget is approved by Commission, the elected
official has the right to spend the money as he or she
deems appropriate except that they cannot make changes
to salary and wage accounts (i.e. increase their overall
spending on wages and benefits) without Commission
approval. (Id., ¶ 10).
The position of Marshal of Civil Court of Richmond
County was created by the Georgia Legislature through
local law in 1974.1 Ga. Laws 1974, p. 2410. Even in its
inception, the position of Marshal was part of the Civil
Court system appointed by and reporting to the elected
position of Chief Judge, not the County government.
Id. In providing the Marshal with jurisdiction, the law
states “that all of the requirements and duties, powers
and authority imposed by law upon and conferred upon
… the sheriff of Richmond County shall be obligatory
upon and shall be vested in the … [Marshal], and the
several deputies, respectively and shall be concurrent and
coexisting with said … Sheriff of Richmond County.” Id.
Importantly, the Legislature stated that deputy marshals
“shall exercise all the functions and be subject to all the
1. In 1974, the original position was named the “Sheriff of
the Civil Court of Richmond County,” but was later amended, in
1978, to the “Marshal of the Civil Court of Richmond County.”
Ga. Laws 1978, p. 3341.

7
responsibilities and requirements of the … [marshal]…”
Ga. Laws 1974, p. 2417.
Effective the election of 2001, the Office of the Marshal
became an elected office voted in by the residents of
Richmond County. Ga. Laws 1999, p. 3508. The law making
the Office of the Marshal an elected office specifically states
“[a]ny other provision of law notwithstanding, all persons
serving as marshal of said court under the provisions of
this section shall have the authority to manage the affairs
of said office and to name their deputies who shall hold said
office at the pleasure of the marshal.” Id. The deputies of
the Marshal’s Office work at the direction and the pleasure
of the duly-elected Marshal.
The Marshal’s Office is a law enforcement organization
and the Marshal performs the powers and duties vested
in him through deputies. Marshal’s deputies play a special
role in implementing the Marshal’s policies and goals.
Marshal’s deputies on patrol exercise significant discretion
and make decisions that create policy. The Marshal
relies on his deputies to foster public confidence in law
enforcement and to provide the Marshal with truthful
and accurate information to perform his elected position.
Petitioner Jones was initially employed with the
Richmond County Marshal’s Office from 1993 to 1996,
returned to the Marshal’s Office in 2001 before resigning
again and returning in 2003 where Jones stayed until
December 31, 2016 at which time Jones was one of only two
employees holding the position of Captain in the Marshall’s
Office. Steve Smith was the Marshal throughout Jones’
employment with the Richmond County Marshal’s Office.
Petitioner Jones publicly supported Steve Smith in the

8
election and made a Facebook post describing the “things
that Steve Smith had done for [him] over the years,” but
without “bashing” Lamkin.
Petitioner Moses was initially hired into the Marshal’s
Office in 2009 under Steve Smith and represented the
Marshall’s Department as its Community Relations
Sergeant as of December 31, 2016. Petitioner Moses also
publicly supported Steve Smith in the election “to the
fullest.” Petitioner Moses wore campaign shirts, posted
pictures on Facebook with Steve Smith, and “asked
family and friends to support him.” Additionally, Moses
also informed Lamkin of his intention to run to become
Marshall in the next election. By letters dated December
6, 2016, Appellee Lamkin informed Petitioners that
“[d]ue to the change in administration and leadership,”
both would be terminated effective January 1, 2017.
The District Court granted Augusta’s and Lamkin’s
motions for summary judgment on September 24, 2018.
The District Court found that because the Georgia
Legislature expressly gave deputy marshals’ duties “which
are identical to” those of the Marshal by granting deputy
marshal the authority to “exercise all the functions” of the
Marshal the deputy marshals are alter egos of the Marshal
and that party affiliation is an appropriate requirement
for the effective performance of the position. The Eleventh
Circuit Court of Appeal affirmed this decision on July 16,
2019.
ARGUMENT
This Court has created two frameworks for analyzing
political expression employment cases depending on

9
whether the case involves political patronage or employee
expression. Terry v. Cook, 866 F.2d 373, 375 (11th Cir.
1989). Political patronage is involved when the employees’
public employment “was absolutely conditioned upon
political allegiance and not upon the content of expressions
of political beliefs.” Id. at 277. Employee expression
is involved when the employees’ public employment is
terminated for the substance of the political speech and
campaigning activities. Stough v. Gallagher, 967 F.2d 1523,
1527-28 (11th Cir. 1992).
In this matter, the District Court properly found that
this matter involves political patronage and not employee
expression. This finding was not challenged by Petitioners
at the Appellate Court and they do not appear to be
attempting to challenge that here. Rather, Petitioners’
focus is on the District and Appellate Courts’ finding that
Petitioners were the alter ego of Respondent Lamkin and
the use of the categorical approach based on that finding.
Political patronage cases are analyzed under the
Elrod-Branti standard. Under this standard, the general
rule is that political patronage dismissals infringe upon
First Amendment principles. Elrod v. Burns, 427 U.S.
347, 360 (1976). However, as with any general rule,
there are exceptions to this protection. Id. Specifically,
if it can be demonstrated that political affiliation is an
appropriate requirement for the effective performance for
the position involved, then First Amendment protection is
not appropriate. Branti v. Finkel, 44 U.S. 507, 519 (1980).
This analysis is generally a fact-intensive inquiry, except
when the subordinate has the authority to act as the
“alter-ego” of the elected official. Cutcliffe v. Cochran, 117
F.3d 1353, 1555 (11th Cir. 1997); Underwood v. Harkins,

10
698 F.3d 1335, 1344 (11th Cir. 2012); Ezell v. Wynn, 802
F.3d 1217, 1225 (11th Cir. 2015). The Eleventh Circuit has
specifically held that “[a]n elected official may dismiss an
immediate subordinate for opposing her in an election
without violating the First Amendment if the subordinate,
under state or local law, has the same duties and powers
as the elected official.” Underwood, 698 F.3d at 1343.
Petitioners urge this Court to find that the ElrodBranti standard be limited “to a true ‘policymaker,’ such
as those who are second or third in the chain of command
…”. Pet. For Cert., p. 13. However, this Court has already
specifically held that “the ultimate inquiry is not whether
the label ‘policymaker’ or ‘confidential’ fits a particular
position; rather, the question is whether the hiring
authority can demonstrate that party affiliation is an
appropriate requirement for the effective performance of
the public officer involved.” Branti, 445 U.S. at 518. Thus,
the true question is whether the statutory framework that
creates the position, if applicable, can be relied upon by the
lower courts in determining whether party affiliation is
an appropriate requirement for the effective performance
of the public officer involved and the undisputed answer
is ‘yes.’
Contrary to Petitioners’ assertion, the Eleventh
Circuit has not entered a decision which is in conflict with
decisions of various other United States Courts of Appeal
on this same issue and, thus, there is not a division in the
circuits as to how the lower courts are to handle partisan
employee dismissals. There is not a single case cited by
Petitioners that stands for the proposition that a public
officer that has duties and functions identical to that of
the elected official is not a position that appropriately
requires party affiliation.

11
In Diruzza v. County of Tehama, et al, 206 F.3d 1304
(9th Cir. 1304), the court assumed arguendo that the
holdings in the Fourth, Seventh, and Eleventh Circuit were
correct on this issue, but found that they were inapplicable
to the case before it due to interpretation and application
of California Law regarding the responsibilities and duties
of a sheriff’s deputy. Id. at 1309. Therefore, this case is
not in conflict with the Eleventh Circuit Court of Appeals
cases, but rather completely in line with them, because
it appropriately looked to the applicable state statutory
framework that created the position and established it was
not sufficient to determine whether party affiliation is an
appropriate requirement for the effective performance of
the public officer involved and only then called to look at
the actual duties of the position involved. Id. In that case,
the only alleged policymaking authority the plaintiff had
was that “she gave open political support to the incumbent
sheriff,” which the court accurately determined was
insufficient and is not even remotely applicable to the case
before this Court. Id. at 1310.
The Tenth Circuit in Jantzen v. Hawkins stated that
it “must focus on the inherent powers of the position
and the actual duties performed” in order to determine
whether party affiliation is an appropriate requirement
for the effective performance of the public officer involved.
Jantzen, et al v. Hawkins, et al, 188 F.3d 1247, 1253 (10th
Cir. 1999). The court did not discuss where these inherent
powers of the position came from but it would make sense
that, at a minimum, these inherent powers came from
any applicable state statutory framework that created
the position. Just like the Tenth Circuit did in Jantzen,
the Eleventh Circuit has also held, using the exact same
framework applied in the case before this Court, that
political affiliation in the position of jailers was not “an

12
appropriate requirement for effective job performance.”
Terry, 866 F. 2d at 377-78. Therefore, there is not a conflict
between the Eleventh Circuit and the Tenth Circuit.
Horton, et al v. Taylor, 767 F.2d 471 (6th Cir. 1985),
is also unhelpful to Petitioners. In Horton, there is no
allegation that a county road-grader operator had the
same duties and powers as a county judge. Rather, in that
case, the district court held that the county road-grader
was the alter ego of the county judge because in small,
rural county politics residents equate employees with their
employers. Id. at 475. The Sixth Circuit appropriately
found that “[t]he size of the office alone in this case
cannot justify” applying the Elrod-Branti standard and
overturned the district court. Id. at 476. This was not a
rejection of the alter ego concept but rather the application
of the alter ego concept based on office size alone. This is
congruent with the findings of the Eleventh Circuit and
does not create a conflict between the circuits.
Assaf v. Fields, 178 F.3d 170 (3rd Cir. 1999), is
inapplicable to the case before this Court. The district
court in Assaf found that the plaintiff was entitled to
First Amendment protection from political discharge but
granted summary judgment based on qualified immunity.
The Third Circuit stated that “the only issue before us
on appeal is the propriety of the [d]istrict [c]ourt’s ruling
that [defendants] were entitle to qualified immunity.” Id.
at 174. Therefore, there is nothing in this decision that is
applicable to the case before this Court and which could
be used to create a conflict between the circuits on the
issue presently before the Court.

13
As shown above, Petitioners have failed to establish
either that the Eleventh Circuit’s decision in this case is
contrary to any precedence of this Court or that it creates
a division between the decisions of various other United
States Courts of Appeal on this same issue.
CONCLUSION
For the foregoing reasons, this Court should deny
Petitioners’ Petition for Writ of Certiorari because the
Eleventh Circuits decision is in accord with the ElrodBranti standard.
This 2nd day of March, 2020.
Jody Mae Smitherman
Augusta Law Department
535 Telfair Street
Building 3000
Augusta, GA 30901
(706) 842-5550
jsmitherman@augustaga.gov

Edward J. Tarver
Counsel of Record
Enoch Tarver, P.C.
3540 Wheeler Road, Suite 312
Augusta, GA 30909
(706) 738-4141
etarver@enochtarver.com

Counsel of Record for
Respondent Augusta,
Georgia

Counsel of Record for
Respondent Ramone
Lamkin

